      NATIONAL CREDIT UNION ADMINISTRATION
          OFFICE OF INSPECTOR GENERAL


                      Evaluation of Project Risks
                     Associated with Upgrade to
                   Comprehensive Human Resources
                      Integrated System (CHRIS)


                       OIG-02-03      March 7, 2002




                                Frank Thomas
                              Inspector General

      Released by:                                Auditor in Charge:
  William A. DeSarno                               Tammy F. Rapp
Deputy Inspector General                          Senior IT Auditor
Evaluation of Project Risks Associated with Upgrade to Comprehensive Human
Resources Integrated System (CHRIS)


Table of Contents



Executive Summary ..........................................................................................................              i

Background ................................................................................................................................1

Scope, Objectives and Methodology ................................................................................................
                                                                                                                            1

Findings and Recommendations ................................................................................................5

     1. A structured system development life cycle (SDLC) and acquisition process or                                                      6
        policy should be developed and enforced ................................................................

     2. Active OCIO involvement is needed for SDLC projects .......................................................
                                                                                                            7

     3. Formal requirements definition was not performed and detailed statement of                                          8
        work from GSA was insufficient.............................................................................................

     4. Periodic Reevaluation of the CHRIS business case is needed ................................                                      10

     5. A structured SDLC project team should be implemented.....................................................
                                                                                                         12

     6. Detailed system security requirements and access control need to be defined ..................
                                                                                              13

     7. User acceptance testing needs to be defined ................................................................13

     8. Data integrity controls need to be defined................................................................                       15
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




                             EXECUTIVE SUMMARY
We performed a review of the National Credit Union Administration’s (NCUA) planned
upgrade to a new comprehensive human resources system. NCUA currently utilizes
General Services Administration’s (GSA) Personnel Information Resource System
(PIRS). NCUA entered into an interagency agreement with GSA for the migration from
PIRS to Comprehensive Human Resources Integrated System (CHRIS) currently
scheduled to be implemented by the end of February 2002. Other than GSA, NCUA will
be the first government agency to implement the customized version of CHRIS.

The purpose of our review was to determine whether NCUA has mitigated the project
risks of a major HR system upgrade by performing appropriate analysis, planning, and
monitoring. We contracted with Urbach Kahn & Werlin Advisors’ Inc. to provide
technical assistance. Our review was performed from October 31, 2001 through
January 15, 2002.

The focus of this review was intended to provide reasonable assurance regarding the
design and effectiveness of controls over systems and procedures. Our review
identified several system migration weaknesses. These weaknesses could lead to
overall increased project risk, NCUA needs/requirements not being met, the planned
implementation timeframe not being met, increased security and system access risks,
and expanding costs.

This report offers eight recommendations to help NCUA mitigate identified project risks.

   •   Ensure a structured process is in place for the development and acquisition of
       third party systems.
   •   Active OCIO involvement regarding the technical aspects of the evaluation
       process.
   •   Statements of Work should include specific description of deliverables, and
       provision for reasonable acceptance testing.
   •   Reevaluate the cost/benefits of CHRIS versus existing COTS packages now
       available.
   •   Implement a SDLC methodology that includes the role of key players who may
       be involved in the development and implementation processes.
   •   Define system security and access control requirements.
   •   Define user acceptance testing needs.
   •   Retain and review CHRIS system documentation.

These issues and the associated recommendations are discussed in detail in the
attached report.


                                           -i-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




                                    BACKGROUND

NCUA currently utilizes General Services Administration’s (GSA) Personnel Information
Resource System (PIRS), Payroll, Accounting, and Reporting System (PAR), Electronic
Time and Attendance Management System (ETAMS) and limited functionality within the
HR module of SAP. NCUA has entered an interagency agreement with GSA for the
migration from PIRS to the Comprehensive Human Resources Integrated System
(CHRIS) in early 2002.

Infrastructure: The modernized CHRIS/PAR software, and the platform upon which
the software resides, will be owned and maintained by GSA. There is a single HR and
payroll data center located in Beltsville, MD. CHRIS has been developed in partnership
with current GSA clients and is designed to allow customization of the software to meet
individual agency needs.

Hardware: Both the payroll and the HR application reside on IBM RS/6000 servers,
located at the Lockheed Martin Data Center in Beltsville, MD.

Software: The CHRIS/PAR system was being developed and deployed as a client-
server departmental system. However, the client conversion and implementation have
been delayed until early 2002 in order to migrate to the web based version 11i of Oracle
HR. The effect of which is to eliminate the client end of the product and implement a
purely web-based application where the only requirements for NCUA use is a current
internet browser, such as Microsoft’s Internet Explorer or Netscape Navigator. The
payroll system was designed and developed by GSA, using Oracle software. CHRIS is
based on a moderately customized version of the Oracle Federal Human Resources
software. Other COTS modules may be purchased to provide support for specific
functions in the future.

Functionality: CHRIS will support all aspects of the personnel life cycle such as:
recruiting, classification, staffing, compensation, benefits, training, EEO reporting, and
personnel processing and management. The HR and payroll systems (CHRIS/PAR)
will be fully integrated.


                SCOPE, OBJECTIVES, AND METHODOLOGY

The scope of this review consisted of evaluating whether NCUA has mitigated the
project risks of a major HR system upgrade by performing appropriate analysis,
planning and monitoring.

In performing this review, the following areas were addressed:


                                            - 1-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




   ü Review the current status of CHRIS implementation at NCUA
   ü Identify any federal and NCUA HR system requirements and whether those
     requirements are fulfilled by CHRIS
   ü Review the justification for the HR system conversion
   ü Identify the system life cycle costs, benefits anticipated, and risks
   ü Determine if agency identified all costs and tasks associated with the upgrade
   ü Determine contractual obligations with GSA for CHRIS
   ü Evaluate project team makeup
   ü Evaluate alternative options and decision process
   ü Identify any project milestones and plans for significant variances encountered
   ü Identify schedule and cost overruns and evaluate explanation of any overruns
   ü Review system test procedures performed and/or planned
   ü Review user training performed and/or planned
   ü Evaluate implementation and conversion plans
   ü Identify any security issues
   ü Review of system interfaces
   ü Evaluate the potential integration of CHRIS with SAP and other NCUA systems

We believe it is prudent to identify such risks for the record, under the premise that
successful risk management ultimately depends on active, senior management
commitment to:

a) the need to mitigate risks where possible, as early in the project’s life cycle as
   possible; and
b) the need to accept and be accountable for clearly-defined risks that are not
   mitigated

SAP had been implemented as the back office application to process financials. In
addition to the financial module, the OCIO produced the ability within SAP to create SF-
50 and SF-52 forms as directed by the OHR. However, the use of these forms was
never implemented within the NCUA OHR. In September 1997, the HR SAP
implementation was put on hold due to an OHR focus shift to an Office of Personnel
Management issue.

In May 1998, when the current Director of HR at NCUA was appointed, the need for a
new personnel action processing system was revisited. The HR Director was not
satisfied with the limited HR functions already implemented in SAP and requested an
implementation that would institute all of the federal HR edits and checks, similar to
those provided in the current system (PIRS). As of July 1, 1998 SAP had not made a
decision regarding their commitment to federalized HR requirements within their
commercial-off-the-shelf (COTS) package.



                                            - 2-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




The OHR researched several options and chose the General Services Administration’s
(GSA) CHRIS system. CHRIS was selected because GSA would design CHRIS to
interface with NCUA’s current payroll system (PAR) thus eliminating the need to convert
to a new payroll system. It is our understanding that conversion of the payroll system
was a non-negotiable requirement of each of the other optional inter-agency vendors of
Personnel Action Processing Systems. Since GSA was to design the system for it’s
own employees and would be the largest CHRIS client, NCUA believed GSA had a
vested interest in delivering the system and, therefore, did not proceed with a formal
requirements analysis.

The purpose of this memorandum is to present a statement of risks that we have
identified during our review to date that, in our view, have not been mitigated by control
techniques employed by the OHR team during their evaluation. We understand that our
assessment may not address controls exercised informally, for example within the
context of team meetings or discussions we did not attend. However, formal life-cycle
controls are typically incorporated into key project management documents, and those
we have had the opportunity to review do not appear to mitigate the accumulated risks
we have enumerated below. Therefore, we must presume that these risks remain
inherent in the project plan moving forward.

We conducted a review of NCUA’s compliance with System’s Development Lifecycle
processes related to the CHRIS implementation. We do not provide assurance of the
adequacy of the service provider’s system. All work was performed in accordance with
Government Auditing Standards, issued by the Comptroller General of the United
States. Our fieldwork was conducted at NCUA’s Alexandria, Virginia Central Office from
November 8, 2001 through December 14, 2001.

Planning Phase:

Our audit approach was designed to provide efficient, effective and timely procedures.
The procedures performed during the planning phase were to ensure the audit work
performed is sufficient to support our report. General procedures that we performed
during the planning phase included:

•   Obtained background information on the CHRIS implementation;
•   Obtained an understanding of NCUA’s SDLC methodology, control environment, as
    well as the controls inherent in CHRIS;
•   Determined our general information needs; and
•   Determined staffing needs and timing of fieldwork procedures.

The planning phase of the audit began with a detailed review of the service provider’s
contract with NCUA and other relevant available documents. During this initial review,


                                           - 3-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



we documented our understanding of key contract provisions and determination of the
effectiveness of the service provider’s implementation of the contract.

Work program: The detailed work program documented our specific approach to the
various review areas and included:

•   The planned degree of reviewing of system development lifecycle;
•   The planned extent of review procedures; and
•   Other major planning decisions for areas which are of significance.

Determining specific review objectives and potential errors that could occur was the
basis for the conduct of the audit. We planned our review procedures to achieve these
objectives and to ensure we neither omitted any review procedures nor performed
unnecessary ones. This work program became the basis for the design of our detailed
review procedures. As procedures were performed and results obtained, the work
program provided a framework for determining review judgments.

Service Provider Implementation: We performed interviews with critical OHR
personnel to determine GSA’s implementation of the CHRIS system. The procedures
also included reviewing available documentation to determine:

•   The availability of the CHRIS system developed to users of all required features and
    services;
•   The availability of the system security policies and procedures developed by GSA;
    and
•   The system lifecycle costs and benefits analysis.

Quality assurance: Establishing and maintaining effective security controls is an
important responsibility of the management of the service provider. Effective quality
controls are essential to achieving the proper conduct of the service provider under the
NCUA contract with full accountability for its resources. Quality controls consist of those
policies and procedures that GSA established to provide reasonable assurance that
specific contract objectives are achieved.

We performed procedures to determine the availability of GSA’s quality assurance
program, including the system test plan and basic security policies to maintain quality
assurance of the CHRIS system. The procedures we performed related to the quality
assurance of GSA included interviewing critical NCUA OHR personnel and NCUA
system security personnel to determine the availability of documented test plan and
security policies.




                                            - 4-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




FINDINGS AND RECOMMENDATIONS

We believe that NCUA would have benefited from a better-structured and better-
controlled needs definition and product assessment process from the beginning. While
we agree with OHR’s assertion that conversion of the existing payroll system was
unnecessary, we do not share the confidence of the OHR team that the selection
process has led to a clearly superior decision and system for NCUA. In addition, we do
not believe it is in NCUA’s best interest to defer development and implementation of a
security plan and risk assessment to the “post implementation” phase. Although NCUA
can reasonably expect competent assistance from its service provider, we expect the
costs of such reliance will continue to rise over time. Such costs could possibly rise to a
point that narrows the cost|benefit gap between CHRIS and other comparable products
regardless of payroll conversion requirements of the comparable systems. We
anticipate that the implementation effort itself is likely to reveal where weaknesses in the
acquisition model could have been more effectively addressed during the project’s initial
development. We have summarized the key risks as follows:

       A. Management may be accepting an unreasonable level of overall project risk,
          due to the accumulation of potential weaknesses that have not been
          mitigated through strong project development controls;
       B. NCUA user needs may not be specified in sufficient detail to ensure project
          success, due to over-reliance on GSA’s ability to produce a system that will
          meet NCUA’s requirements without a formal, independent needs analysis;
       C. Lack of top-down management focus on enterprise architecture may
          increase project risk, perhaps due in part to insufficient OCIO and/or ITOC
          involvement, as well as resource constraints needed to focus on CHRIS
          initiatives;
       D. Significant risk of project delivery due to repeated delays and variances in
          project milestones potentially leaving NCUA without the current Personnel
          Information Resource System (PIRs);
       E. Significant security and access control risk due to lack of initial requirements
          analysis and documentation;
       F. Significant risk of expanding costs, due to a possible 100 percent increase in
          processing fees by 2004.




                                            - 5-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




This section summarizes the risks accumulated during the PIRS system replacement
process.


1. A structured system development life cycle (SDLC) and acquisition process or
   policy should be developed and enforced.

Risk

In our view, there may be continuing residual risks to project success due to missing or
deferred components of a well-structured SDLC-based system acquisition. The SDLC
methodology should require that the solution’s functional and operational requirements
be specified. Regardless of whether a system is developed internally or obtained from
a third party provider, a minimum level of controls are recommended to ensure that
requirements are met, sufficient testing is performed, and appropriate security and
controls are in place. In fact, NCUA recognized the importance of due diligence with
third party providers and recommended in its Letter 01-CU-20 to All Federally Insured
Credit Unions that credit unions perform a due diligence review when entering into
agreements with third party service providers.

Recommendation 1

We recommended that NCUA ensure a structured process for the development and
acquisition of third party systems. OHR did not, and was not required to, execute such
a process. We further understand that a strict adherence to an SDLC methodology may
not always be appropriate for all third-party SDLC projects. To allow for a more flexible
SDLC approach, we recommend that the ITOC and OCIO agree and document the risk
threshold limits that would require a strict adherence and approval of an SDLC project
at NCUA. These risk threshold limits would define the amount of structure that is
required for each SDLC project depending on the risk level per SDLC project (e.g., the
greater the risk, the greater amount of SDLC structure that would be required by NCUA
management). Approval of the risk threshold limits should be based on three primary
factors: (1) the cost of the project, (2) the impact to on-going business operations and
(3) systems security requirements.

Management Comments

Management officials did not believe the application of a SDLC in this specific
procurement action was appropriate because NCUA did not develop a system.
Regarding systems development, when OCIO converted the agency from a mainframe
processing environment to a client/server architecture, it decided to look for an existing
SDLC methodology to use in software development efforts. The agency decided for an



                                            - 6-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



organization of NCUA’s size, which does far more maintenance and incremental
development, the best approach was to distill the key aspects of the Capability Maturity
Model into the agency’s local policies and procedures.

OIG Response

As previously stated in our report, we agree that a formal full Systems Development
Lifecycle (SDLC) methodology may not be appropriate for every SDLC project.
However, when committing to SDLC projects, NCUA management should quantify the
risk to NCUA and assign an amount of SDLC structure that is required based on the
level of risk. These risk threshold limits would define the amount of structure that is
required for each SDLC project depending on the risk level per SDLC project (e.g., the
greater the risk, the greater amount of SDLC structure that would be required by NCUA
management). Approval of the risk threshold limits should be based on three primary
factors: (1) the cost of the project, (2) the impact to on-going business operations and
(3) systems security requirements.

We note that CHRIS was developed specifically for NCUA, which required modifications
to the database tables and had data conversion needs. In addition, GSA is the first and
only agency to implement CHRIS in the Federal government and NCUA would be first
to implement the customized version of CHRIS. The due diligence that should ha ve
been performed is not unlike what NCUA requires from their member credit unions.

Furthermore, NCUA management should not wholly rely on the word of third-party
vendors, whether these Federal agencies are small or large organizations within the
Federal government. It is incumbent upon NCUA management to exercise their own
due diligence in order to gain an appropriate level of assurance and minimize the overall
risk to NCUA. To use an analogy, we all want the plane to land safely, but we also want
to ensure that all reasonable safety precautions have been built into the process before
takeoff. By taking the course of action of simply trusting GSA at their word, NCUA has
taken on a much greater risk than necessary in order to implement CHRIS.


2. Active OCIO involvement is needed for SDLC projects.

Risk

We noted that OHR engaged various OCIO members in discussions regarding the SAP
interface to CHRIS. However, technical and project risk may remain for NCUA due to
OCIO’s limited overall role in defining and managing CHRIS project initiatives.




                                           - 7-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




Recommendation 2

OHR planners and personnel need to work closely with the ITOC and OCIO in order to
retain guidance and analysis regarding the technical aspects of the evaluation process.
In addition, OCIO personnel have the technical background to ensure adherence to
NCUA IT security, access control and testing policies and procedures. We are not
aware that the OCIO has been involved to this extent in the acquisition and testing of
this mission critical system. In the future, OCIO should be actively involved and
engaged at each phase of the SDLC process which includes: Concept, Requirements
Definition, Detailed Design and Security Design, Development, Testing, Quality
Assurance and Change Controls, and Implementation.

Management Comments

Management officials concurred with this recommendation.

OIG Response

OCIO was not actively engaged during the entire life of the CHRIS project. Although
OHR retained an individual that previously worked for the OCIO, it is still important that
OHR actively communicate the status of the project to OCIO on a regular basis. There
are interdependencies within NCUA’s systems architecture that could adversely affect
systems operability or security without the acti ve involvement of OCIO.


3. Formal Requirements Definition was not performed and detailed Statement of
   Work from GSA was Insufficient.

Risk

There may be continuing project technical and cost risk due to possible gaps in needed
functionality that were either: (a) not disclosed, or (b) not completely worked through or
reviewed at a detailed level. We believe that a risk to project success continues due to
the failure of NCUA to establish a fully qualified universe of requirements and user
needs. We are not aware that a unique NCUA needs definition was established as a
basis for assessing whether NCUA requirements were met. Or, that such requirements
are being used to determine whether GSA has delivered a core system that is, in fact,
federally compliant with personnel action requirements. There also remains a risk that
needs beyond the core personnel action requirements have not been defined or even
recognized. The result of such a process is a system that may not meet the business
needs, requirements and expectations of NCUA users. A Statement of Work should be
detailed and include the specific description of deliverables, and provision for a


                                            - 8-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



reasonable acceptance testing and may have mitigated these risks to NCUA’s
successful implementation of CHRIS.

NCUA relied on OPM’s “The Guide to Processing Personnel Actions (Guide)” as the
requirement’s for the CHRIS project and has trusted in GSA to develop the system as
needed. OPM’s guide states in Chapter One, page 1-13,

“Follow carefully the instructions found in the chapter(s) appropriate for the action.
The instructions cover only the Office of Personnel Management’s requirements and
may not include everything that your agency requires. Therefore, if your agency has its
own processing instructions, you must follow them, as well. Because each personnel
office may operate under different procedures, this Guide does not tell you who is
responsible for each processing step.”

We are concerned that this scenario has effectively been substituted for the level of
structured needs definition that typically must be addressed specifically by candidate
vendors, both to satisfy evaluation criteria and to be incorporated into contract language
as leverage against future product acceptance. We do not believe that these goals
were satisfied during the OHR’s evaluation efforts although their approach likely did
have the effect of “accelerating” the evaluation process.

There may be continuing project technical and cost risk due to possible gaps in needed
functionality that were either:

      a. not disclosed at all, or
      b. were not fully worked through at a detailed level.


We noted in NCUA’s Board Action Memorandum dated July 28, 1998 that there was a
high-level summary of the Federal Human Resources Information Systems Core
Functional Requirements. This document compares other Federal HR solutions with
that of SAP. However, during our review OHR was unable to provide a documented
account of NCUA’s specific and unique systems requirements for CHRIS. This should
have been provided to GSA during the Requirement Phase of the project. There
remains a risk that NCUA’s unique needs beyond the Core have not been defined or
even recognized. The end result of such a process is a system that may not meet the
user’s business needs, user requirements and expectations.

In addition, we reviewed a document entitled Oracle Government Human Resources
Systems Requirements dated February 28, 1997. This eight-page document outlines
several business processes that GSA proposed to be delivered. However, during the
course of our review, we noted that OHR had not received any documentation from
GSA to ensure that these business process requirements were actually designed and



                                           - 9-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



available to NCUA. OHR should have documentation supporting that these business
processes requirements are actually functionally available from GSA prior to the
implementation of CHRIS.

Recommendation 3

The Statement of Work should include the specific description of deliverables, and
provision for reasonable acceptance testing.

Management Comments

Management officials do not concur. They believe the statement of work was adequate-
CHRIS is a replacement HR system for PIRS, both of which were developed,
implemented, and operated by GSA for federal clients.

OIG Response

We do agree that CHRIS may be functional for GSA and incorporate federal personnel
processing requirements. However, NCUA management took GSA entirely on their
word about the ability of CHRIS to perform as required by NCUA and did not request or
receive any documented assurance from GSA that the final developed version of
CHRIS was actually designed and functioning with all federal personnel processing
requirements as well as NCUA’s specific requirements. Therefore, NCUA management
took on an ever increasing risk for NCUA by not performing an adequate level of due
diligence in respect to SDLC processes.


4. Periodic reevaluation of the CHRIS business case is needed

Risk

CHRIS was originally scheduled to be operational for NCUA in 1997 with enhanced
service offerings available to the Administration in early 1998. By July 28, 1998 when
the BAM was presented to the NCUA board, the scheduled NCUA system conversion
was already delayed to June of 1999. In July of 2000 the GAO issued its “Report to the
Chairman, Committee on Government Reform, House of Representatives Information
Technology Selected Agencies’ Use of Commercial Off-the-Shelf Software for Human
Resources Functions”. In this report GAO stated that, according to GSA, the
deployment delay was caused by: (1) a lack of maturity in the Oracle product relative to
the HR needs of federal agencies, (2) a lack of skilled resources, and (3) GSA’s
decision to implement the system with internal staff. In October of 2000, GSA
communicated to NCUA that a change in senior management (top CHRIS manager)
took place. New management wanted to slow deployment and implementation in order


                                          -10-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



to determine how client implementation was to be conducted. Therefore, all client
implementations, including NCUA’s, were postponed into calendar year 2001. In
December of 2000, GSA again communicated to NCUA that they had not yet received
approval of the fiscal year 2001 budget for the CHRIS project. Thus GSA would be
working with substantially less funding than anticipated which reduced the number of
consultants working with GSA on the project. GSA again postponed implementation in
this communication, but committed to bringing on external customers in Spring 2001. In
May of 2001, GSA, again, discussed plans with NCUA to postpone implementation until
the spring of 2002 in order to migrate to version 11i of the Oracle relational database
management system. NCUA’s go-live date is now scheduled for February 27, 2002.

We believe there remains a risk that the CHRIS system will not be fully implemented in
the timeframe communicated by GSA, leaving NCUA at risk of not having a supported
human resources information system. In addition, NCUA is uncertain of processing
fees beyond the first two years, making it difficult to forecast future costs. According to
OHR, the annual processing cost could rise from $60,000 to $120,000. It should also
be noted that this cost estimate from GSA was verbal and there is no written agreement
regarding future costs. Another point of consideration is that GSA may have only three
clients utilizing the CHRIS system. Given this interagency client base, at some future
date it may not be financially feasible for GSA to continue CHRIS service and support
without considerable increase in annual fees of CHRIS users.

Recommendation 4

Though NCUA continually followed up with GSA regarding project delays, we could not
verify that NCUA has reevaluated the business case regarding the GSA/CHRIS
decision. NCUA should reevaluate the business case of implementing CHRIS on a
periodic basis (e.g., annually) after implementation. This process will assist in
identifying whether this system solution is still appropriate for the ongoing business
strategy of NCUA. A systems business case review should focus on the detailed
economics of the implementation and identify the estimated costs and benefits for
NCUA over the life of the investment, as well as other business options that are
available to NCUA. In addition, it may be beneficial for NCUA to determine if additional
COTS packages are available that meet federal HR requirements and evaluate the
benefits of implementing such a system considering both productivity gains and future
cost savings.

Management Comments

Management officials concurred with this recommendation.




                                            -11-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




5. A structured SDLC project team should be implemented.

Risk

There may be additional risk to the overall success of the project due to a lack of a
structured SDLC project team. For example, OHR has not interfaced with the CIO,
NCUA’s Security Officer, or GSA’s Security Manager. Another concern brought to our
attention is the lack of resource allocation in both the OHR and OCIO necessary to
comply with sound best-practices SDLC procedures.

Recommendation 5

We recommend a SDLC methodology that includes the role of key players who may be
involved in the development and implementation processes. Once senior management
commits to the project, approval for the necessary resources is essential to ensure the
involvement of key individuals or groups that adhere to a formal SDLC methodology.
User management is responsible for systems requirements, acceptance testing and
user training. The Project Manager ensures involvement from all affected departments,
ensures the project adheres to standards set forth in the Statement of Work, while
monitoring and controlling deliverables, costs and project timelines. The Security
Officer provides guidance pertaining to suitable security processes that should be
achieved and a Quality Assurance Manager confirms adherence to the requirements set
forth in the formal requirements analysis and stipulated in the Statement of Work.

Management Comments

Management officials do not believe a strict SDLC model is appropriate for an
organization of NCUA’s size that does far more maintenance and incremental
development. However, they do concur that active OCIO involvement is needed for
systems development projects.

OIG Response

Regardless of how much structure is required for an SDLC project, it is essential that
NCUA management ensure that basic internal control objectives are achieved in
respect to project management. Some of these controls include and are not limited to;
project management, systems security, and independent quality assurance
management.




                                          -12-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




6. Detailed system security requirements and access control need to be defined.

Risk

GSA has not shared the security documentation pertaining to CHRIS with NCUA,
however, GSA communicated that Oracle Business Groups will support the system
security. When a NCUA user is assigned access to the system, the system security
defines that individual works for NCUA, therefore he/she will only be able to see
NCUA’s data.
In order to maintain local control initially, the only persons with access to CHRIS will be
the individuals at the Alexandria location who currently have access to PIRs. The
Director of OHR will remain the only individual within NCUA with authority to approve
personnel actions. Eventually NCUA plans to grant access to regional managers for
generating requests for personnel actions and ad hoc reporting however the control
details have not been thoroughly defined. GSA has not communicated to NCUA details
pertaining to web based security however, NCUA believes in good faith that GSA will
manage the security issues inherent in the web based version 11i of Oracle HR
appropriately. We believe there is additional risk in NCUA’s lack of understanding
regarding the security features of the web-based application.

Recommendation 6

In addition to implementing technical and operational controls, testing needs to be
planned and conducted to assure the security features effectively function by
segregating users and protecting NCUA personnel action data.

Management Comments

Management officials concurred with this recommendation.


7. User acceptance testing needs to be defined.

Risk

As of our report date, NCUA has not received test plans from GSA however, NCUA has
developed their own parallel testing plans. NCUA plans to manually check every
account and test the most likely nature of action codes. Test parameters defined to the
UKW SACteam include:

   •   Personnel transactions (A minimum of twenty records for each NOA will be
       tested) Specific NOAs and transactions to be tested included but are not limited
       to:


                                            -13-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



       •   Appointments
       •   Position builds and fast copies
       •   Reassignments
       •   Promotions
       •   Change to Lower Grade
       •   Details
       •   Pay (Agency unique)
       •   Separations
       •   Corrections
       •   Cancellations
       •   Awards
       •   Relocation Bonus
   •   Output Products
       • End of day processing (Validation reports, error reports etc.)
   •   Reports
       • EEO Extract
       • DESIREs
       • 113A & 113G
   •   Tables
       • Local table updates
       • Central table lookups and edits
   •   Interfaces
       • Payroll and Accounting Report (PAR) System
       • SAP
       • CPDF

Upon completion of the initial test cycle and certification of system specification by the
OHR Automation Specialist, the OHR CHRIS Team will begin parallel operations for
one-pay period. During parallel testing, sample personnel transactions will be processed
and various output products will be reviewed for accuracy. Actions will be checked first
to see if they meet the specifications requested and second to determine if the changes
adversely impact other parts of the system. CHRIS results and reporting will be
compared and reconciled to PIRS’ corresponding data. Problems uncovered through
testing will be documented and submitted to GSA CHRIS staff for resolution. Problems
will be re-tested by NCUA OHR staff to complete the certification of CHRIS.

Although NCUA has scheduled parallel testing, there may be risk to the overall project
success considering acceptance testing was not detailed in the Statement of Work and
pass/fail criteria were not defined. NCUA assumes there will be signed user
acceptance documents however this was not formally documented in the agreement
with GSA. In addition, significant transactions not occurring during the pay period when
parallel testing is performed may not be tested providing no assurance that these
transactions will function properly for NCUA.


                                           -14-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS




Recommendation 7

We recommend that NCUA detail user testing with GSA to include pass/fail criteria prior
to beginning their own parallel test. NCUA should recognize that running a parallel test
for one-pay period is an insufficient amount of testing because it may not represent
significant transactions occurring in other pay periods. A minimum amount of due
diligence would include reviewing GSA’s test results. NCUA should review the following
test results of the CHRIS system provided by GSA:

   •   Unit Testing
   •   System Testing
   •   Recovery Testing
   •   Security Testing
   •   Stress/Volume Testing
   •   Performance Testing
   •   Function/Validation Testing
   •   Regression Testing

Management Comments

Management does not concur. They believe that since CHRIS has been operational
and in live production at GSA for over a year, the recommendation that NCUA request
and review GSA’s test plans, as detailed, is unnecessary.

OIG Response

We feel that it is necessary to re-state the need for NCUA management to conduct an
adequate level of diligence in respect to overall systems testing. In addition, it is
incumbent upon NCUA management to gain an appropriate level of assurance in order
to minimize the business risk to NCUA. As a minimal requirement, NCUA management
should have requested test results from GSA and not just relied on GSA’s unverified
assurances alone. Some of the requirements that should have been covered in a
structured test plan include and are not limited to: Unit Testing, System Testing,
Recovery Testing, Security Testing, Stress/Volume Testing, Performance Testing,
Functional/Validation Testing, Regression Testing and User Acceptance Testing.


8. Data integrity controls need to be defined.

Risk

NCUA has been scrubbing current data and applying edits appropriate to CHRIS.
During parallel testing, NCUA will manually check data to ensure accuracy of GSA’s


                                          -15-
EVALUATION OF PROJECT RISKS ASSOCIATED WITH CHRIS



initial data load and reconcile personnel action transactions. GSA has informally
communicated to NCUA that Oracle Audit will be implemented to track system changes
although NCUA has no verification of this or plans for testing the audit trails provided.

NCUA does not have assurance from GSA regarding control of transaction and
transmittal logs or the identified audit trails. UKW Advisors, Inc. was not able to
determine if these audit logs will be available for NCUA’s review and/or testing. Such
controls may be vital to ensuring the integrity and validity of NCUA personnel action
data. Should system changes (either operating system, Oracle database or application
program(s)) occur that affect NCUA personnel action data outside of normal user
transactions, NCUA may not have sufficient audit trail to track and reconcile changes.

Recommendation 8

In order to determine the reliability of computer-processed data, the user should
understand system controls which include both general and application controls.
Documentation of a well-controlled system should be complete and current. We
recommend that NCUA retain and review CHRIS system documentation. In addition,
NCUA should request and review documentation from GSA pertaining to error
correction procedures, transaction logs, transmittal logs, and audit trails as well as the
accessibility of this information to NCUA personnel. OHR has indicated that they will
have paper trails for a full reconstruction. However, the manual reconstruction of these
documents is a voluminous task that will create labor inefficiencies and could result in
human error. It is more efficient and practical for NCUA to pre-define automated
controls and review the systems transaction logs.

Management Comments

Management does not concur. They believe the core Oracle HR product provides the
appropriate audit trails and error correction procedures and logs necessary to provide
the appropriate level of data integrity.

OIG Response

We understand that the core Oracle HR product provides audit trails and error
correction procedures. However, NCUA management has not defined a process to
review these logs to ensure that internal controls are built into the business process.
Documentation of a well-controlled system should be complete and current. In addition,
NCUA should request and review documentation from GSA pertaining to error
correction procedures, transaction logs, transmittal logs, and audit trails. Furthermore,
NCUA did not have assurances from GSA regarding control of transaction and
transmittal logs or the identified audit trails. Each of these internal control areas should
be included in the CHRIS project plan as normal due diligence.


                                            -16-
